BLD-152
April 15, 2021
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 21-1438
UNITED STATES,
VS.
MICHAEL CURTIS REYNOLDS, Appellant
(M.D. Pa. Crim. No. 3:05-cr-00493-001)
Present: AMBRO, SHWARTZ and PORTER, Circuit Judges
Submitted are:
1) By the Clerk for possible summary action under 3rd Cir. L.A.R. 27.4
and Chapter 10.6 of the Court’s Internal Operating Procedures;
2) Appellant’s March 17, 2021 response;
3) Appellant’s March 31, 2021 response; and
4) Appellant’s supplemental brief
in the above-captioned case.
Respectfully,
Clerk
______________________________ ORDER____________________________
The District Court’s order entered February 10, 2021, is summarily affirmed
because no substantial question is presented on appeal. See L.A.R. 27.4; I.O.P. 10.6.
The District Court did not abuse its discretion in denying Appellant’s motion for
compassionate release for the reasons the Court provided. See 18 U.S.C.
§ 3582(c)(1)(A); United States v. Pawlowski. 967 F.3d 327, 330 (3d Cir. 2020)

To the extent that Appellant requests leave to file a second or successive motion
under 28 U.S.C. § 2255 to challenge his convictions based on Sessions v. Dimava. 138 S.
Ct. 1204 (2018), and United States v. Davis. 139 S. Ct. 2319 (2019), the request is denied
because Reynolds has previously raised theses challenges to his convictions, and they
have been rejected. See C.A. No. 19-3469 (Mar. 31, 2020); C.A. No. 20-1363 (Apr. 10,
2020); sge also § 2244(b)(1); White v. United States. 371 F.3d 900, 901 (7th Cir. 2004)'
(applying rule in § 2255 context).
By the Court,

s/Patty Shwartz
Circuit Judge
Dated: April 16, 2021
CLW/cc: Mr. Michael Curtis Reynolds
James Buchanan, Esq.
c

♦ "

w *

v .*
T

S'

* ^
** o
*

«•
h

<■r

♦

o

T,

■*

9

%

♦

/

X

♦

Certified

)y and issued in
i lieu
June 30. 2021

^ **

of a fornh^j
;*3s . ivA5

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

2

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
Case No. 3:05-cr-493

MICHAEL CURTIS REYNOLDS
Defendant

ORDER ON MOTION FOR
SENTENCE REDUCTION UNDER
18U.S.C. §3582(c)(l)(A)
(COMPASSIONATE RELEASE)

Upon motion of the defendant for a reduction in sentence under 18 U.S.C. §3582(c)(l)(A)
(Doc. 691), as well as his several other motions, (Docs. 696, 700, 706, 717, 719-721), and after
considering the applicable factors provided in 18 U.S.C. §3553(a) and the applicable policy
statements issued by the Sentencing Commission, IT IS ORDERED that all of the motions are:
□

GRANTED

□

The defendant’s previously imposed sentence of imprisonment of
is reduced to

. If this sentence is less than the

amount of time the defendant already served, the sentence is reduced to a time
served; or
□

Time served.

If the defendant’s sentence is reduced to time served:
□

This order is stayed for up to fourteen days, for the verification of the defendant’s
residence and/or establishment of a release plan, to make appropriate travel
arrangements, and to ensure the defendant’s safe release. The defendant shall be
released as soon as a residence is verified, a release plan is established, appropriate
travel arrangements are made, and it is safe for the defendant to travel. There shall

be no delay in ensuring travel arrangements are made. If more than fourteen days
are needed to make appropriate travel arrangements and ensure the defendant’s safe
release, the parties shall immediately notify the court and show cause why the stay
should be extended, or

□

There being a verified residence and an appropriate release plan in place, this order
is stayed for up to fourteen days to make appropriate travel arrangements and to
ensure the defendant’s safe release. The defendant shall be released as soon as
appropriate travel arrangements are made and it is safe for the defendant to travel.
There shall be no delay in ensuring travel arrangements are made. If more than
fourteen days are needed to make appropriate travel arrangements and ensure the
defendant’s safe release, then the parties shall immediately notify the court and
show cause why the stay should be extended.

□

The defendant must provide the complete address where the defendant will reside
upon release to the probation office in the district where they will be released
because it was not included in the motion for sentence reduction.

□

Under 18 U.S.C. §3582(c)(1)(A), the defendant is ordered to serve a “special
term” of □ probation or □ supervised release of

months (not to exceed the

unserved portion of the original term of imprisonment).

□

The defendant’s previously imposed conditions of supervised release apply to the
“special term” of supervision; or

□

The conditions of the “special term” of supervision are as follows:

□

The defendant’s previously imposed conditions of supervised release are
unchanged.

2

□

The defendant’s previously imposed conditions of supervised release are modified
as follows:

□

DEFERRED pending supplemental briefing and/or a hearing. The court
DIRECTS the United States Attorney to file a response on or before
, along with all Bureau of Prisons records (medical,
institutional, administrative) relevant to this motion.

X

DENIED after complete review of the motions on the merits.

X

FACTORS CONSIDERED (Optional)
The background of this case is stated in the court’s prior decisions, as well as in
the Third Circuit’s opinion affirming defendant Reynold’s conviction, and will not
be fully repeated. (See United States v. Reynolds, 374 F.App’x 356 (3d Cir.
2010); Doc. 662). (See also Doc. 709 at 2-8), However, due to the very serious
and disturbing nature of Reynold’s terroristic crimes, which reveal the grave threat
he still poses to the public, the court will highlight relevant portions of his
background. Defendant Reynolds is currently serving his aggregate sentence of
360-months’ imprisonment at FCI-Greenville, Illinois. (Doc. 297). Reynolds
received two sentence level enhancements that were based on his involvement in
terrorist activities. (See U.S.S.G. §§2M5.3(b), 3A1.4(a)). In particular, Reynolds
was convicted of Count One of the superseding indictment, (Doc. 80), which
charged him with attempting to provide material support and resources to a
foreign terrorist organization, namely Al-Qaeda, in violation of 22 U.S.C.
§2339B, and Count Two, which charged him with attempting to provide material
support and resources to damage or destroy, or attempt to damage or destroy, any

UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
CASE NO. 3:20-CV-02178

MICHAEL CURTIS REYNOLDS

(Judge Mannion)

v.
UNITED STATES OF AMERICA, et al.
Respondents

(Electronically Filed)

ORDER
AND NOW, this

20th

day of January 2021, upon consideration

of the Government’s Nunc Pro Tunc Motion For Extension Of Time, this
motion is hereby GRANTED. The response of the United States is now
due on or before January 26, 2021.

BY THE COURT:
<*/ ‘TKatackf S■ “THomUm
MALACHY E. MANNION
United States District Judge

6

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page lot 36

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.

MICHAEL CURTIS REYNOLDS,
Defendant

No. 3:05-CR-493
(Mannion, J.)

Electronically filed

UNITED STATES’ BRIEF IN OPPOSITION TO
SECOND MOTION FOR COMPASSIONATE RELEASE
Defendant Michael Curtis Reynolds has filed a pro se motion
asking the Court to reduce his sentence of imprisonment under 18
U.S.C. § 3582(c)(1)(A) and order his immediate release, relying in part
on the threat posed by the COVID-19 pandemic. The Government
respectfully opposes the motion. The Court should deny the motion with
prejudice because Reynolds has not met his burden of establishing that
a sentence reduction is warranted under the statute, and the motion,
while bearing a different title, is best construed as a second or
successive motion under 28 U.S.C. §2255, filed without prior
authorization, and focused on the previously ruled upon legal
challenges to the defendant’s trial and sentence.

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 2 of 36

BACKGROUND
On December 5, 2005, Reynolds was arrested in Idaho on a
criminal complaint from the Middle District of Pennsylvania charging
him with possession of an unregistered destructive device, in violation
of 26 U.S.C. §5861(d). On December 20, 2005, a federal grand jury in
the Middle District of Pennsylvania returned an indictment charging
him with two counts of the same charge.
The grand jury on October 3, 2006, returned a six-count
superseding indictment charging Reynolds with attempting to provide
material support and resources to a foreign terrorist organization in
violation of 18 U.S.C. § 2339B (Count 1); attempting to provide material
support and resources to damage or destroy property used in commerce
by means of fire or explosive, and to damage or attempt to damage an
interstate gas pipeline, in violation of 18 U.S.C. § 2339A (Count 2);
solicitation or inducement of another to damage or destroy property
used in commerce by means of fire or explosive, and to damage or
attempt to damage an interstate gas pipeline in violation of 18 U.S.C. §
373 (Count 3); distribution through the internet of information
demonstrating the making or use of an explosive or destructive device
2

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 3 of 36

with the intent that the information be used to commit a federal crime
of violence in violation of 18 U.S.C. 842(p)(2) (Count 4); and the same
two counts of possessing unregistered destructive devices - hand
grenades - that had been charged in the original indictment (Counts 5
and 6). (Doc No. 80.)
Defendant pleaded not guilty and trial commenced on July 9,
2007. Following a five-day jury trial, the defendant was found guilty of
counts 1-4 and 6 of the superseding indictment. The jury returned a
“not guilty” verdict on count 5 of the superseding indictment relating to
a charge of possession of a destructive device (hand-grenade).
The basis of these charges is that Reynolds attempted to support
terrorism by attempting to enlist units of A1 Qaeda to bomb interstate
gas pipeline facilities and sought to provide target locations, bomb
making advice, and diagrams to assist such activity. Reynolds also sent
numerous emails, elicited at trial, which sought to enlist A1 Qaeda
“crews” to strike gas pipelines in Wyoming, Pennsylvania, and New
Jersey. Two hand grenades were also recovered in connection to
Reynolds. He was acquitted on Count 5 of the Indictment concerning
the hand grenade located in his former residence but was convicted for
3

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 4 of 36

possessing the hand grenade recovered from his storage locker in
Pennsylvania on or before the date of his arrest, December 5, 2005.
Reynolds filed post-trial motions which were denied by the court.
A presentence report was prepared and determined that pursuant
to U.S.S.S. Section 2M5.3, Reynolds’ base offense level was 26. That
base level was increased by 2 levels because the resources being
provided were with the intent that it assists in a violent act. US.S.G.
Section 2M5.3(b). In addition, because the offenses were felonies that
involved, or intended to promote a federal crime of terrorism, the
offense level was increased by 12 levels with a corresponding Category
IV criminal history. U.S.S.G. 3A1.4(a). Finally, because the defendant
willfully attempted to obstruct justice by committing perjury during the
trial, his offense level was increased by an additional two levels
pursuant to U.S.S.G. Section 3C1.1.1 Accordingly, his final offense level
of 42 with a Category VI criminal history produced an advisory
Guidelines range of 360 to life. (PSR at 46-58; 56.)

1 At the trial, Reynolds testified that he wrote the emails offered by the government
but claimed, essentially, that he was doing so in an attempt to gain evidence so that
he could turn the terrorists into authorities. The week after the verdict, Reynolds
sent a letter to the Court claiming that he had lied while testifying at trial.

4

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 5 of 36

On November 5, 2007, the district court sentenced the defendant
to 360 months’ imprisonment to be followed by three years of supervised
release. Specifically, the Judgement stated:
The defendant is hereby committed to the custody of the
United States Bureau of Prisons to be imprisoned for a total term
of 360 month(s). This term consists of terms of one hundred eighty
(180) months imprisonment on each of Count 1 and 2, to be served
consecutively to each other and terms of ninety (90) months
imprisonment on Count 3, two hundred forty (240) months on
Count 4, and one hundred twenty (120) months on Count 6, to be
served concurrently with each other and with Counts 1 and 2 to the
extent necessary to produce a total term of three hundred sixty
(360) months.
(Doc. 297, at 3.)
The defendant was also ordered to serve concurrent terms of three
years of supervised release on each count, and to pay a special
assessment of $500. No fine was imposed. (Doc 297.)
A timely notice of appeal was filed. On March 18, 2010, the United
States Court of Appeals for the Third Circuit affirmed the conviction
and sentence in an unreported opinion. See United States v. Reynolds,
374 F.App’x 356, 363 (3d Cir. 2010). On October 4, 2010, the United
States Supreme Court denied the defendant’s petition for a writ of
certiorari.

5

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 6 of 36

On August 29, 2011, the defendant filed a timely §2255 motion
alleging that his trial attorney was ineffective. On August 15, 2012, the
Honorable William J. Nealon issued a memorandum and order
dismissing Reynolds’ §2255 motion and further ordered that there was
no basis for the issuance of a certificate of appealability. (Docs 491 and
492.)
On September 4, 2012, Reynolds filed a notice of appeal of the
denial of his §2255 motion. (Doc.484.) On February 13, 2012, the
Third Circuit Court of Appeals denied Reynolds’ request for a certificate
of appealability. (Doc. 493.)
Thereafter, Reynolds filed various other motions with the Court
many of which were construed as successive §2255 motions without
authorization by the Court of Appeals. (Docs. 522, 526, 531, 535, 539
557, 559.) Those motions were denied for failure to have been
authorized by the Court of Appeals. (Docs. 537, 543, 562.)
On October 10, 2018, the Court of Appeals issued an order
authorizing a second or successive motion under 28 U.S.C. §2255
concluding that Reynolds had made a prima facie showing in his
proposed §2255 motion which contained a new rule of constitutional law
6

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21' Page 7 of 36

in light of the Supreme Court’s decisions in Sessions v. Dimava. 138
S.Ct. 1204 (2018), Welch v. United States, 136 S.Ct. 1257 (2016), and
Johnson v. United States, 135 S.Ct. 2551 (2015). (Doc. 565.) In this
§2255 motion, Reynolds contended that Count 4 of the Superseding
Indictment was invalid, because 18 U.S.C. 842(p)(2) incorporated the
definition of “crime of violence” provided by 18 U.S.C. §16(b), which the
Supreme Court declared unconstitutionally vague in Dimava.
On September 26, 2019, the Honorable A. Richard Caputo denied
defendant’s authorized second or successive §2255 motion finding that
the defendant’s petition for relief was not actionable because the
defendant’s custody status would not change even if the proposed relief
was granted. (Doc. 662, at 4). Specifically, Judge Caputo found that any
challenge to the validity of Count 4 in the Superseding Indictment
would not affect the defendant’s custody seeing that defendant was also
lawfully sentenced at Counts One, Two, Three, and Six, all counts
which were not which were not impacted by the Supreme Court’s
decisions in Dimava. Welch, and Johnson. (Doc. 662 at 4).
In the same decision, Judge Caputo further denied the
approximately 40 additional motions for relief filed by the defendant
7

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 8 of 36

between October of 2018 and September of 2019 each, though bearing
various titles, requested similar relief regarding the defendant’s actual
innocence. Judge Caputo construed each of these various motions as
second or successive motions under 28 U.S.C. §2255 and dismissed
them for being filed without prior authorization. (Doc. 662, at 7).
On July 7, 2020, the defendant submitted a written request for
compassionate release to the warden of FCI-Greenville, where the
defendant is currently serving his term of imprisonment. See
Attachment 1. This request was denied by the Warden on July 15, 2020.
See Attachment 2.
On November 2, 2020, the defendant filed the present one
hundred and eighty-nine (189) page motion under 18 U.S.C.
§ 3582(c)(1)(A) requesting a sentence reduction for extraordinary and
compelling reasons and seeking his immediate release from the custody
of the Bureau of Prisons (BOP), relying on his medical history of heart
murmurs, a family medical history of heart attacks, the claim that a
certain Doctor Ahmad, who purportedly is employed at FCI-Greenville,
is not a licensed doctor, and various failures by the staff at FCIGreenville to abide by COVTD-19 restrictions. These items, however,
8

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 9 of 36

only take up a small percentage of the lengthy motion. While the
factors related to the defendant’s health are mentioned in both the
beginning and conclusion of the motion, and there is a brief six-page
interlude in Pages 59-65 of the motion about conditions in FCIGreenville, the remainder of the 182 pages of the motion re-argue the
defendant’s legal challenges to his trial and sentence, including the
,

issues decided in defendant’s previous §2255 motions described above.

I.

BOP’s Response to the COVID-19 Pandemic
As this Court is well aware, COVID-19 is an extremely dangerous

illness that has caused many deaths in the United States and that has
resulted in massive disruption to our society and economy. In response
to the pandemic, BOP has taken significant measures to protect the
health of the inmates in its charge.
In response to similar motions in other matters, the United States
has briefed the Court extensively on the BOP’s efforts to combat and
contained COVID-19, so will not repeat them all here. However, as an
update, the BOP’s operations—including the operations at FCIGreenville, where the defendant is currently incarcerated—are now
9

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 10 of 36

governed by Phase Nine of the Action Plan, which went into effect on or
about August 5, 2020, and was last updated on November 25, 2020.2
See Attachment 3.
In addition, in an effort to relieve the strain on BOP facilities and
assist inmates who are most vulnerable to the disease and pose the
least threat to the community, BOP is exercising greater authority to
designate inmates for home confinement. On March 26, 2020, the
Attorney General directed the Director of the Bureau of Prisons, upon
considering the totality of the circumstances concerning each inmate, to
prioritize the use of statutory authority to place prisoners in home
confinement. That authority includes the ability to place an inmate in
home confinement during the last six months or 10% of a sentence,
whichever is shorter, see 18 U.S.C. § 3624(c)(2), and to move to home
confinement those elderly and terminally ill inmates specified in 34
U.S.C. § 60541(g). Congress has also acted to enhance BOP’s flexibility
to respond to the pandemic. Under the Coronavirus Aid, Relief, and

2 Further details and updates of BOP’s modified operations are available on
the BOP website at a regularly updated resource page:
www .bop. gov/coronavirus/index.i sp.

10

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 11 of 36

Economic Security Act, enacted on March 27, 2020, BOP may “lengthen
the maximum amount of time for which the Director is authorized to
place a prisoner in home confinement” if the Attorney General finds
that emergency conditions will materially affect the functioning of BOP.
Pub. L. No. 116-136, § 12003(b)(2), 134 Stat. 281, 516 (to be codified at
18 U.S.C. § 3621 note).
On April 3, 2020, the Attorney General gave the Director of BOP
the authority to exercise this discretion, beginning at the facilities that
thus far have seen the greatest incidence of coronavirus transmission.
As of this filing, BOP has transferred 17,642 inmates to home
confinement. See Federal Bureau of Prisons, COVID-19 Home
Confinement Information, at https://www.bop.gov/coronavirus/.
On January 4, 2021, the Director of BOP issued clinical guidance
to provide direction on the use of the COVID-19 vaccine for BOP
inmates. See Federal Bureau of Prisons, COVID-19 Vaccine Guidance,
at https://www.bop.gov/resources/pdfs/2021 covid!9 vaccine.pdf.
Within that guidance, the BOP authorized the use of two vaccines,
Pfizer and Moderna, to BOP inmates who meet BOP priority levels

11

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 12 of 36

based upon their age and medical conditions, including but not limited
to cancer, COPD, obesity, and certain heart conditions.
Taken together, all of these measures are designed to mitigate
sharply the risks of COVTD-19 transmission in a BOP institution. BOP
has pledged to continue monitoring the pandemic and to adjust its
practices as necessary to maintain the safety of prison staff and inmates
while also fulfilling its mandate of incarcerating all persons sentenced
or detained based on judicial orders.
Unfortunately, and inevitably, some inmates have become ill, and
more likely will in the weeks and months ahead. But BOP must
consider its concern for the health of its inmates and staff alongside
other critical considerations. For example, notwithstanding the current
pandemic crisis, BOP must carry out its charge to incarcerate sentenced
criminals to protect the public. It must consider the effect of a mass
release on the safety and health of both the inmate population and the
citizenry. It must marshal its resources to care for inmates in the most
efficient and beneficial manner possible. It must assess release plans,
which are essential to ensure that a defendant has a safe place to live
and access to health care in these difficult times. And it must consider
12

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 13 of 36

myriad other factors, including the availability of both transportation
for inmates (at a time that interstate transportation services often used
by released inmates are providing reduced service), and supervision of
inmates once released (at a time that the Probation Office has
necessarily cut back on home visits and supervision).

II.

Reynolds’s Request for a Sentence Reduction
Reynolds is currently serving his 360-month period of

imprisonment at FCI-Greenville in Greenville, Illinois. That institution
has had 667 reported inmate cases of COVTD-19 out of approximately
1188 inmates tested, as of this writing. Currently, there are 13 active
inmate cases, and 14 active staff cases. There have been no inmate or
staff deaths from COVID-19 at the facility. See Federal Bureau of
Prisons, COVID-19 Cases, https://www.bop.gov/coronavirus/. The total
inmate population at the institution is 1,194, with 972 inmates at FCIGreenville and 222 inmates at the adjoining Camp. See Federal Bureau
of Prisons, https://www.bop.gov/institutions/gre/.

13

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 14 of 36

Reynolds submitted a request to the warden of FCI-Greenville via
email for compassionate release dated July 7, 2020. See Attachment 1.
This request was denied by the warden on July 15, 2020. See
Attachment 2.
On November 2, 2020, Reynolds sought compassionate release
under 18 U.S.C. § 3582(c)(1)(A) on the grounds that he suffers from
heart murmurs, that several family members, including his father,
grandfather, and two uncles died from heart attacks prior to the age of
65, that COVID-19 is widespread in FCI-Greenville due to various
failures to abide by COVID-19 restrictions by staff members, and that a
certain Doctor Ahmed who practices at FCI-Greenville is not a licensed
physician. (Doc. 691, at 1-2.)
In his motion Reynolds makes no reference to the fact that he
previously contracted and recovered from COVID-19 in October of 2020.
See Attachment 4, at 67 (filed under seal). Reynolds also does not
allege in his motion that he currently suffers from any symptoms of
COVID-19 or that his undiagnosed history of heart murmurs is not
being adequately controlled by BOP medical staff, nor that he suffers

14

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 15 of 36

from any symptoms or conditions which render him particularly
susceptible to a re-infection of COVID-19.
LEGAL FRAMEWORK
Under 18 U.S.C. § 3582(c)(1)(A), this Court may, in certain
circumstances, grant a defendant’s motion to reduce his or her term of
imprisonment. Before filing that motion, however, the defendant must
first request that BOP file such a motion on his or her behalf.
§ 3582(c)(1)(A). A court may grant the defendant’s own motion for a
reduction in his sentence only if the motion was filed “after the
defendant has fully exhausted all administrative rights to appeal a
failure of the Bureau of Prisons to bring a motion on the defendant’s
behalf or the lapse of 30 days from the receipt of such a request by the
warden of the defendant’s facility, whichever is earlier.” Id. Here, 30
days elapsed between Reynolds’ request for release to the warden of
FCI-Greenville (July 7, 2020), and the docketing of his motion in this
Court (November 2, 2020). He thus has passed the statutory limitation
on seeking relief in this Court. See United States v. Harris, 812 F.
App’x 106, 107 (3d Cir. 2020) (per curiam; awaiting designation as
precedential) (rejecting argument that inmate was required to fully
15

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 16 of 36

exhaust the administrative process when request to warden was denied
within 30 days).
If that exhaustion requirement is met, a court may reduce the
defendant’s term of imprisonment “after considering the factors set
forth in [18 U.S.C. § 3553(a)]” if the Court finds, as relevant here, that
(i) “extraordinary and compelling reasons warrant such a reduction”
and (ii) “such a reduction is consistent with applicable policy statements
issued by the Sentencing Commission.” § 3582(c)(l)(A)(i). As the
movant, the defendant bears the burden to establish that he or she is
eligible for a sentence reduction. United States v. Jones, 836 F.3d 896
899 (8th Cir. 2016); United States u. Green, 764 F.3d 1352, 1356 (11th
Cir. 2014).
The Sentencing Commission has issued a policy statement
addressing reduction of sentences under § 3582(c)(1)(A). As relevant
here, the policy statement provides that a court may reduce the term of
imprisonment after considering the § 3553(a) factors if the Court finds
that (i) “extraordinary and compelling reasons warrant the reduction”;
(ii) “the defendant is not a danger to the safety of any other person or to

16

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 17 of 36

the community, as provided in 18 U.S.C. § 3142(g)”; and (iii) “the
reduction is consistent with this policy statement.” USSG § IB 1.13.3
The policy statement includes an application note that specifies
the types of medical conditions that qualify as “extraordinary and
compelling reasons.” First, that standard is met if the defendant is
“suffering from a terminal illness,” such as “metastatic solid-tumor
cancer, amyotrophic lateral sclerosis (ALS), end-stage organ disease
[or] advanced dementia.” USSG § 1B1.13, cmt. n.l(A)(i). Second, the
standard is met if the defendant is:
(I) suffering from a serious physical or medical condition
(II) suffering from a serious functional or cognitive
impairment, or
(III) experiencing deteriorating physical or mental health
because of the aging process,

3 The policy statement refers only to motions filed by the BOP Director. That is
because the policy statement was last amended on November 1, 2018, and until the
enactment of the First Step Act on December 21, 2018, defendants were not entitled
to file motions under § 3582(c). See First Step Act of 2018, Pub. L. No. 115-391, §
603(b), 132 Stat. 5194, 5239; cf. 18 U.S.C. § 3582(c) (2012). In light of the statutory
command that any sentence reduction be “consistent with applicable policy
statements issued by the Sentencing Commission,” § 3582(c)(l)(A)(ii), and the lack
of any plausible reason to treat motions filed by defendants differently from motions
filed by BOP, the policy statement applies to motions filed by defendants as well.

17

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 18 of 36

that substantially diminishes the ability of the defendant to
provide self-care within the environment of a correctional facility
and from which he or she is not expected to recover.
USSG § 1B1.13, cmt. n.l(A)(ii). Third, the standard is met if the
defendant is:
(i)

at least 65 years of age,

(ii)

is experiencing a serious deterioration in physical or
mental health because of the aging process, and

(iii)

has served at least 10 years or 75 percent of his or her
term of imprisonment, whichever is less.

USSG § 1B1.13, cmt. n.l(B) The application note also sets out other
conditions and characteristics that qualify as “extraordinary and
compelling reasons” related to the defendant’s family circumstances.
USSG § 1B1.13, cmt. n.l(C). Finally, the note recognizes the
possibility that BOP could identify other grounds that amount to
“extraordinary and compelling reasons.” USSG § 1B1.13, cmt. n.l(D).

ARGUMENT
The Court should deny Reynolds’ motion for a reduction in his
sentence with prejudice on either of two independently sufficient
18

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 19 of 36

grounds. First, Reynolds has not established that “extraordinary and
compelling reasons” support a sentence reduction within the meaning of
§ 3582(c)(1)(A) and the Sentencing Commission’s policyystatement.
Second, Reynolds has not met his burden to show that a reduction is
warranted in light of the relevant § 3553(a) factors, and he remains a
danger to the community.
A.

Reynolds Has Not Identified “Extraordinary and
Compelling Reasons” for a Sentence Reduction.

Reynolds’ request for a sentence reduction should be denied
because he has not demonstrated “extraordinary and compelling
reasons” warranting release. As explained above, under the relevant
provision of § 3582(c), a court can grant a sentence reduction only if it
determines that “extraordinary and compelling reasons” justify the
reduction and that “such a reduction is consistent with applicable policy
statements issued by the Sentencing Commission.” 18 U.S.C.
§ 3582(c)(l)(A)(i). The Sentencing Commission’s policy statement
defines “extraordinary and compelling reasons” to include, as relevant
here, certain specified categories of medical conditions. USSG § IB 1.13,
cmt. n.l(A).
19

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 20 of 36

For that reason, to state a cognizable basis for a sentence
reduction based on a medical condition, a defendant first must establish
that his condition falls within one of the categories listed in the policy
statement. Those categories include, as particularly relevant here, (i)
any terminal illness, and (ii) any “serious physical or medical condition .
. . that substantially diminishes the ability of the defendant to provide
self-care within the environment of a correctional facility and from
which he or she is not expected to recover.” USSG 1B1.13, cmt. n.l(A). If
a defendant’s medical condition does not fall within one of the
categories specified in the application note (and no other part of the
application note applies as the defendant is 62 years old and claims no
other circumstances for release due to either the aging process or family
circumstances), his or her motion must be denied.
The mere existence of the COVID-19 pandemic, which poses a
general threat to every non-immune person in the country, does not fall
into either of those categories and therefore could not alone provide a
basis for a sentence reduction. The categories encompass specific
serious medical conditions afflicting an individual inmate, not
generalized threats to the entire population. As the Court of Appeals
20

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 21 of 36

held, “the mere existence of COVID-19 in society and the possibility
that it may spread to a particular prison alone cannot independently
justify compassionate release.” United States v. Raia, 954 F.3d 594, 597
(3d Cir. 2020)(vacated and motion granted by United States v. Raia
2020 U.S. App. Lexis 11003, 3d Cir., April 8, 2020); see also United
States v. Eberhart, 2020 WL 1450745, at *2 (N.D. Cal. Mar. 25, 2020)
(“a reduction of sentence due solely to concerns about the spread of
COVID-19 is not consistent with the applicable policy statement of the
Sentencing Commission as required by § 3582(c)(1)(A).”); United States
v. Korn, 2020 WL 1808213, at *6 (W.D.N.Y. Apr. 9, 2020) (“in this
Court’s view, the mere possibility of contracting a communicable disease
such as COVID-19, without any showing that the Bureau of Prisons will
not or cannot guard against or treat such a disease, does not constitute
an extraordinary or compelling reason for a sentence reduction under
the statutory scheme.”).
To classify COVID-19 as an extraordinary and compelling reason
would not only be inconsistent with the text of the statute and the
policy statement, but would be detrimental to BOP’s organized and
comprehensive anti-COVID-19 regimens, could result in the scattershot
21

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 22 of 36

treatment of inmates, and would undercut the strict criteria BOP
employs to determine individual inmates’ eligibility for sentence
reductions and home confinement. Section 3582(c)(1)(A) contemplates
sentence reductions for specific individuals, not the widespread
prophylactic release of inmates and the modification of lawfully imposed
sentences to deal with a world-wide viral pandemic.
l.

Reynolds’ Medical Conditions and Family Medical History

Reynolds premises his motion on his claimed personal history of
heart murmurs and a family history of heart attacks by several close
male relatives prior to the age of 65. Reynolds does not allege—and
there is no evidence—that his medical issues “substantially diminishes
[his] ability ... to provide self-care within the environment” of his
institution. USSG § IB 1.13, cmt. n.l(A)(ii). Although the attached BOP
medical records for Reynolds, see Attachment 4, confirms that Reynolds
report of a family history of heart disease, there is no mention of a heart
murmur diagnosis, nor that Reynolds suffered from any symptoms or
conditions due to heart murmurs. Reynolds records indicate that he
suffers from several joint disorders and bipolar disorder, neither of
which is classified as an “at risk” category by the CDC. See Attachment
22

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 23 of 36

4, at 18; Centers for Disease Control, Groups at Higher Risk for Severe
Illness, available at https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/groups-at-higher-risk.html. Even if there had been a
diagnosis of heart murmurs, this condition is also not included among
the conditions identified by the CDC as increasing a person’s risk for
developing serious illness from COVID-19. Id.; see also United States v.
Green, 2020 WL 2064066, at *3 (W.D.P.A. July 6, 2020) (denying release
for 39-year-old defendant suffering from a heart murmur and high blood
pressure that was stabilized and controlled by medication.)
The CDC has listed certain heart conditions and other
cardiovascular and cerebrovascular diseases that increase a person’s
risk of severe illness from COVID-19, namely: heart failure; coronary
artery disease; cardiomyopathies; and pulmonary hypertension. See
Centers for Disease Control, Groups at Higher Risk for Severe Illness,
available at https://www.cdc.gov/coronavirus/2019-ncov/need-extraprecautions/groups-at-higher-risk.html. Additionally, the CDC also
lists other diseases, hypertension (high blood pressure) and stroke,
which might increase your risk of severe illness from COVID-19. These
factors, however, only increase risk for severe illness if they are actually
23

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 24 of 36

suffered by the individual seeking relief, not if they are suffered by
relatives, even close relatives of the petitioner. Of course, a family
history of heart attacks, or of any hereditary health condition, may
increase a person’s chance of one day suffering from that condition, but
Reynolds has not established that he has ever suffered a heart attack,
heart failure, or any other heart condition listed by the CDC placing
him at an increased risk of severe illness from COVID-19.
Moreover, Reynolds’ conditions are being well managed by the
BOP. Importantly, a review of Reynolds’ medical records shows that he
receives regular and proper care for his health and psychiatric issues.
See generally Attachment 4; see also United States v. Cruz, 2020 WL
1904476 (M.D. Pa. Apr. 17, 2020) (Mannion, J.) (finding through a
review of medical records that the BOP adequately attended to
defendant’s needs).
Moreover, Reynolds medical records show that he contracted
COVID-19 on October 20, 2020 and that on October 29, 2020, Reynolds
was diagnosed as “Recovered.” See Attachments, at 29, 57, 67, 79, and

24

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 25 of 36

91. 4 During this period, Reynolds was screened for COVID symptoms
multiply times and the records indicate that he complained of
headaches and body aches but no further COVID symptoms such as
cough, pain, fatigue, and any loss of taste or smell, among others. See
Attachment 4, at 67. Reynolds recovery from COVID indicate that the
care provided to him by the BOP while he suffered from the disease was
adequate and that no extraordinary and compelling reason for his
release exists, a position held by numerous courts throughout the
country. See United States v. Zahn, 2020 WL 3035794 (N.D. Cal. June
10, 2020); United States u. Pinkston, 2020 WL 3492035 (S.D.Ga. June 6,
2020)(relief denied to 70-year old inmate who recovered after
hospitalization for COVID-19, and other conditions are controlled);
United States v. Reece, 2020 WL 3960436, at *6 (D. Kan. July 13
2020)(“In light of Reece’s apparent recovery and the fact that he does
not dispute that he remains asymptomatic and does not point to any
current health problems as a result of having contracted COVID-19, the

4 According to the CDC, cases of reinfection with COVID-19 have been reported, but
remain rare. See https://www.cdc.gov/coronavirus/2019-ncov/yourhealth/reinfection.html

25

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 26 of 36

Court finds extraordinary and compelling reasons do not exist to
warrant a sentence reduction under §3582(c)(l)(A).”); United States v.
McCallum, 2020 WL 7647198, at *1 (S.D.N.Y. December 23, 2020)(“Now
that he has weathered the disease, a sentence reduction based on the
risk of contracting it no longer makes sense.”); United States v.
Wiltshire, 2020 WL ( E.D.Pa. December 9, 2020); but see United States
v. Brown, 2020 WL 7401617, at *7 (E.D. Wis. December 17, 2020)(“I
rejected the notion that a prisoner who had recovered from COVID-19
can never demonstrate extraordinary and compelling reasons, instead
endorsing an individualized determination, which would include
consideration of the prisoner’s specific medical problems and their
severity, the course of his recovery from the virus, whether he displayed
any lingering symptoms or effects, and the conditions at his particular
facility.”) Reynolds’ medical records also indicate that, if Reynolds is re­
infected with COVID-19, it is likely that he would receive the same
adequate medical care and that his re-infection would again remain
relatively asymptomatic.

26

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 27 of 36

n.

Alleged Conditions at FCI-Greenville

Beyond allegedly suffering from a heart murmur, and a family
medical history of heart failure, Reynolds also claims that the
conditions within FCI-Greenville present an extraordinary and
compelling reason for his immediate release. In a five page section of

'

his motion entitled, “Covid-19 Misinformation” beginning on Page 59 of
his motion, Reynolds lists various failures by the staff at FCI-Greenville
to abide by COVID-19 rules and restrictions which have led to an
outbreak in the institution. (Doc. 691, at 59-64.)
While the accuracy of these allegations is in doubt, as many are
supported by nothing but the bare assertion of the defendant,
nevertheless, a serious outbreak of COVID-19 did occur at the
institution. As discussed above, there are currently 1,194 inmates
incarcerated at FCI-Greenville (including 222 at the Camp). Nearly all
of them, 1,188, have been tested for COVID-19 and there have been 667
confirmed cases of COVID-19 in the inmate population at the facility
since the beginning of the pandemic, including Reynolds. However,
th^re have been no inmate or staff deaths due to COVID-19 which
highlights the adequate level of care provided to inmates if they do
27

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 28 of 36

contract the disease. Furthermore, there are currently only 27 active
cases at the institution (13 inmate and 14 staff) while there have been
729 cases in which the individual recovered (674 inmate and 55 staff)
again, including Reynolds. This decrease in the number of cases within
the inmate population shows that the procedures, rules, and restrictions
put into place by FCI-Greenville and the Bureau of Prisons has worked
in stemming the tide of pandemic within that institution.
Reynolds also claims that a certain “Doctor Ahmed” is not a
licensed physician. (Doc 691, at 62-63.) However, the only evidence
offered by Reynolds that Doctor Ahmed is not a licensed physician is a
website print-out listing the license status of several doctors with the
last name^of “Ahmed” in Illinois. There is no indication that this printoff shows all the Dr. Ahmeds currently practicing in Illinois, nor that
any of the doctors listed is the actual doctor providing care at FCIGreenville. Furthermore, as Reynolds’ medical records show, he has
received medical care from a variety of providers including Physician
Assistants and Registered Nurses. See generally Attachment 4. The
only indication that a Doctor Ahmed physically examined Reynolds was
during Reynolds’ Chronic Care Examination on April 1, 2019, in which
28

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 29 of 36

Reynolds was examined by Doctor F. Ahmed, and which Reynolds was
assessed as suffering from bipolar disorder, pain in an unspecific joint,
and an unspecific Joint disorder. See Attachment 4, at 16-18.
The alleged conditions and the outbreak of COVID-19 within FCIGreenville, while serious, do not create any extraordinary
circumstances compelling the immediate release of Reynolds. These
conditions apply equally to all the 1,194 inmates currently imprisoned
at the institution. Even if every allegation presented by Reynolds is
conceded to be true, they do create a compelling reason why Reynolds’
sentence alone should be reduced and not the other 1,193 inmates.
Reynolds has not alleged that the COVID-19 outbreak has exposed him
to any increased risk of severe illness as compared to any other inmate,
or that the status of Doctor Ahmed’s medical license has led Reynolds to
receive inadequate medical care as compared to any similarly situated
inmate. Reynolds allegations merely list circumstances applicated to
all inmates and hence are not unique to any one person. See United
States v. Wright, (W.D.L.A. 2020 WL 1976828, April 24, 2020)(“The
Court cannot release every prisoner at risk of contracting COVID-19
because the Court would then be obligated to release every prisoner.”)
29

•

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 30 of 36

Because Reynolds has failed to establish an “extraordinary and
compelling reason” for a sentence reduction under § 3582(c),- based upon
both his personal medical condition, and the conditions present for all
the inmates at FCI-Greenville, his motion should be denied.

B.

The § 3553(a) Factors Weigh Against Reynolds’
Release.

Alternatively, Reynolds’ request for a sentence reduction should
be denied because he has failed to demonstrate that he merits release
under the § 3553(a) factors.
At the present time, it is apparent that, but for the COVID-19
pandemic, Reynolds would present no basis for compassionate release.
The alleged medical ailment, the heart murmur, Reynolds has
identified is well-controlled and does not present any impediment to his
ability to provide self-care in the institution. Reynolds also does not
claim that his contraction of and recovery from COVID-19 has impair
his condition in any meaningful way. Additionally, Reynolds is only 62
years old and claims no deterioration due to the aging process.

30

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 31 of 36

The only question, then, is whether the risk of COVID-19 changes
that assessment. It does not. At present, Reynolds medical conditions
are appropriately managed at the facility, which is also engaged in
strenuous efforts to protect inmates against the further spread of
COVID-19, include the process of vaccinating at-risk inmates, and
would also act to treat any inmate who does contract COVID-19, as it
has already successfully done in respect to Reynolds. The § 3553(a)
factors, moreover, weigh against a sentence reduction.
Reynolds is serving a sentence of 360 months (at the bottom of his
guidelines of 360 months to life). His conviction stem from Reynolds
attempt to support terrorism by attempting to enlist units of A1 Qaeda
to bomb'interstate gas pipeline facilities and providing target locations,
bomb making advice, and diagrams to assist such activity. Reynolds
also sent numerous emails, elicited at trial, which sought to enlist A1
Qaeda “crews” to strike gas pipelines in Wyoming, Pennsylvania, and
New Jersey. Reynolds also possessed the hand grenade recovered from
his storage locker in Pennsylvania on or before the date of his arrest,
December 5, 2005.

31

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 32 of 36

Moreover, at sentencing, Reynolds was subject to an obstruction of
justice enhancement after Judge Nealon determined that he gave false
testimony during the trial.
Reynolds was arrested and has been in federal custody since
December 5, 2005. He was sentenced on November 6, 2007. He thus
has served approximately 181 months of his 360 months sentence.
While 181 months is undoubtedly a significant sentence, it only
represents 50.2% of his term of imprisonment. Granting him immediate
release at this time would not only result in a sentence that falls well
below his guidelines range of 360 months to life Additionally, such a
result would effectively remove any sentence for Count 2 of the
indictment, attempting to provide material support and resources to
damage or destroy property used in commerce by means of fire or
explosive, and to damage or attempt to damage an interstate gas
pipeline, in violation of 18 U.S.C. 2339A. Such a result would also not
adequately account for the serious nature and circumstances of the
offenses, the need to promote respect for the law, or the need to afford
adequate deterrence.

32

Case 3:05-cr-00493-MEM Document 709 Filed 01/13/21 Page 34 of 36

as no legal argument of a valid ‘Terrorist’ exists.” (Doc 692, at 2.)
Reynolds has previously raised the issues presented in the remainder of
the 189 pages through various appeals and 28 U.S.C. §2255 motions.
Beginning on Page 125 of his motion, Reynolds just incorporates nearly
sixty pages of copies of previous §2255 motions which have been denied
and which no authorization for a second or successive motion has been
granted by the Court of Appeals. (Doc. 692.)
Tellingly, in the two-page section of Reynolds’ motion titled
“Conclusions,” beginning on Page 183, Reynolds does not mention any
medical conditions that would afford an extraordinary or compelling
reason for this sentence reduction. Reynolds merely concludes that
COVID-19 is “rampant and out of control in FCI Greenville,” and that a
certain Doctor Ahmad is not a licensed doctor. (Doc. 692, at 183.) The
remainder of the two pages of “Conclusions” reargues that the charges
for which Reynolds has been convicted are void and unconstitutional.
(Doc. 692, at 183-184.) Even if the allegations about the conditions in
FCI-Greenville and a certain Doctor Ahmad were true, which Reynolds
has failed to show they are, they do not create an extraordinary and
compelling reason for the specific release of Reynolds, but for the
34

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.

NO. 3:05-CR-00493
(JUDGE MANNION)

MICHAEL CURTIS REYNOLDS
Defendant.

(Filed Under Seal)

MOTION TO SEAL
AND NOW, the United States of America, by its undersigned counsel,
moves pursuant to Local Criminal Rule 49 to file the documents
accompanying this motion under seal for the reasons set forth in the
accompanying sealed declaration in support of the government’s motion to
seal.
WHEREFORE, for the foregoing reasons, the United States moves to
seal this Motion and the above-referenced pleadings. For the convenience of
the Court, a proposed form of Order is attached.

Respectfully submitted,
BRUCE D. BRANDLER
Acting United States Attorney
Date: January 13, 2021

/s/ James M. Buchanan
JAMES M. BUCHANAN
Assistant United States Attorney
iames.buchanan@usdoi.gov

{

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.

NO. 3:05-CR-00493
(JUDGE MANNION)

MICHAEL CURTIS REYNOLDS,
Defendant.

(Filed Under Seal)

ORDER
IT IS ORDERED that the Clerk of Court provide the United States
Attorney’s Office with two (2) certified copies of the accompanying
documents and thereafter keep these documents from public view until the
Clerk has made appropriate docket entries.
IT IS FURTHER ORDERED that these documents only be opened by
appropriate Court personnel of the Middle District of Pennsylvania in due
course of performing the business of the Clerk’s Office, after which the Clerk
is ordered to seal this Order and all accompanying documents untib
[X]

Notified in writing by the United States Attorney’s
Office that there is no longer any reason for the
documents to remain sealed; or

[]

Further Order of the Court.

MALACHY E. MANNION
UNITED STATES DISTRICT JUDGE
DATE- January

2021

Case: 21-1438

Document: 11

Page: 1

Date Filed: 06/22/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 21-1438

UNITED STATES OF AMERICA
v.
MICHAEL CURTIS REYNOLDS,
Appellant

(M.D. Pa. Crim. No. 3-05-cr-00493-001)
SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

Case: 21-1438

Document: 11

Page: 2

Date Filed: 06/22/2021

BY THE COURT,

s/Patty Shwartz
Circuit Judge
Dated: June 22, 2021
CLW/cc: Mr. Michael Curtis Reynolds
James Buchanan, Esq.

